audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Englewood, Colorado, Department of Safety Services
GR-80-99-015
May, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Englewood Department of Safety Services.  The purpose of the grants is to enhance community policing.  Englewood was awarded a total of $543,375 to hire two new full-time and ten new part-time officers, and redeploy the equivalent of 0.7 existing full-time officers from administrative duties to community policing.
	
	We reviewed Englewood's compliance with eight essential grant conditions.  The grant conditions were generally met; however, we found weaknesses in three areas as identified below.  As a result, we question $125,453. 
 

For the hiring grants, Englewood used part-time sworn officers to fill full-time COPS-funded positions.  However, the resulting part-time officer vacancies were not immediately filled as required.  Additionally, one of the grant-funded officers was hired more than a year before the grant began.

	For the redeployment grant, we could not substantiate that any of the 0.7 positions that Englewood was reimbursed for had been redeployed to community policing.  The grantee purchased computer equipment to allow it to free up existing officer positions from administrative duties to community policing.  However, Englewood could not demonstrate how much administrative time, if any, was being saved.  
	
	Several status reports were either not accurate, not timely, or not filed.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.